■'1
■

*,

r—-p p /—~v p p r|
■

. ,

•

r-^
' 1

q

t.

i

1 **

V Jj LI Li Li

u

Li U Li U L i —3
uPr6meCo‘

■wrUS!

piled

NO:

m 12 :2021
QpQCBOF-m,
2Sj£tfRK

3fn tJie
Supreme Court of tfje Unite!) States
TAMMY NOERGAARD,
Petitioner,
vs.
CHRISTIAN NOERGAARD,
Respondent.
On Petition for a Writ of Certiorari to the
Fourth District Court of Appeal, Division
Three, Santa Ana, California
PETITION FOR A WRIT OF CERTIORARI

Tammy Noergaard
1361 Spectrum
Irvine, CA 92618
(949) 842-5942
Petitioner, In Propria Persona

RECEIVED
APR - 5 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

QUESTIONS PRESENTED
1. Does a reviewing Court retain jurisdiction to
review lower court decisions for due process
violations under the Due Process and Equal
Protection Clause of the 14th Amendment of the
United States Constitution(“Equal Protection
Clause”) that occur before and during a trial in a
case involving the Hague Convention on the Civil
Aspects of International Child Abduction (“Hague
Convention”),' or is jurisdiction limited to violations
that fall under Hague Convention Article 26 that
occurred Berthe trial and even when the attorney’s
fees represent a collateral legal consequence ?
• Does a litigant have a right to a timely trial, or
do several years of delays result in violations of
the Equal Protection Clause, Hague Convention
Article 2, and/or the American Declaration on the
Rights
and
Duties
of Man(“American
Declaration”)?
• Does a litigant have a fundamental right to equal
justice under the law without regard to economic
means in a Hague convention case, or can
extreme trial costs and fees violate the Equal
Protection Clause, Hague Convention Article 22,
and/or the American Declaration?
2. Can egregious misconduct during trial court
proceedings affect the trial such that it violates the
Equal Protection Clause, and warrant reversal?

A

i,

PARTIES TO THE PROCEEDING
All parties to the proceeding are named in the
caption.

n

Table of Contents
QUESTIONS PRESENTED.........................
PARTIES TO THE PROCEEDING.............
TABLE OF CONTENTS.................... ...........
TABLE OF AUTHORITIES..........................

I
II
III

V
1

PETITION FOR A WRIT OF CERTIORARI
STATEMENT OF THE CASE......................
4
A. BACKGROUND....................................
4
B. TRIAL COURT HISTORY....................
6
C. APPELLATE HISTORY: FIRST PUBLISHED
REVERSAL AND REMAND.........................
8
D. TRIAL COURT HISTORY AFTER FIRST
REVERSAL AND REMAND.........................
9
E. APPELLATE HISTORY: SECOND
PUBLISHED PARTIAL REVERSAL AND
REMAND....................................................... 11
REASONS FOR GRANTING THE PETITION.... 13
I. Does a reviewing Court retain jurisdiction
TO REVIEW LOWER COURT DECISIONS FOR HARMFUL
DUE PROCESS VIOLATIONS UNDER THE EQUAL

Protection Clause that occurred before and
DURING A TRIAL, PRIOR TO THE CHILD’S 16TH
BIRTHDAY, AND RAISED ON APPEAL,- OR IS
JURISDICTION LIMITED TO ONLY DUE PROCESS
VIOLATIONS THAT FALL UNDER HAGUE CONVENTION

Article 26 that occurred after the trial and
EVEN WHEN ATTORNEY’S FEES REPRESENTED A
COLLATERAL LEGAL CONSEQUENCE ??

13
A Did the Orange County court, as an actor for
the State, violate the Interamerican treaty for
Human Rights and other Human Rights

m

treaties in its mishandling ofthe Hague case?
16
II. DOES A LITIGANT HAVE A RIGHT TO A TIMELY

Hague trial, or do several years of delays
RESULT IN VIOLATIONS OF THE EQUAL PROTECTION

Clause, Article 2 of the Hague Convention,
AND/OR THE AMERICAN DECLARATION ON THE

Rights and Duties of Man?.......................... 19
A. It is a violation ofthe Equal Protection
Clause when a litigant is threatened with
imprisonment on a contempt charge over costs
and fees in a Hague case, and a trial court
refuses to set the matter for trial and delays
the trial, because a litigant cannot afford to
pay, the costs and fees were not owed, and
there was no order the litigant was in
contempt of................................................... 25
IV. Can egregious misconduct during trial
COURT PROCEEDINGS, SO SERIOUSLY AFFECT THE
TRIAL AS TO VIOLATE THE DUE PROCESS AND EQUAL

Protection Clause of the Fourteenth
Amendment of the United States
Constitution, as to warrant reversal?.......28
A. This court should grant review to resolve a
Respondent's right to respond or object to the
prima fade case in the trial court before a trial
court makes a ruling on it.
38
CONCLUSION........................
39

IV

TABLE OF AUTHORITIES
Cases
Brooks.v.Tennessee(l972)406 U.S.605, 406 U.S.at
page 612
36
Cooper v. Superior Court (1961) Cal. 2d. 291, 29835
Cuellar v. Joyce (Cuellar II), 603 F. 3d. (9th Cir.
2010)......................................................................... 20
Georgia v. Brailsford, 3 U.S. 1, 4 (1794)................. 24
Gori v U.S., 367 U.S.364, 365 n.6, 6 L. Ed.2d 901,
81 S. Ct. 1523(1961).............................................. 35
Gulbranson v. Duluth, Missabe & Iron Range Ry.,
921 F.2d 139, 142-43 (8th Cir. 1990)................... 37
Gulf, C. & S.F. Ry. Co. v. Ellis, 165 U.S. 150, 160
(1897)....................................................................... 24
In General Refractories Co. v.Fireman's Fund Ins.
Co., 2002 U.S. Dist.LEXIS25324, 2002 WL
376923(E.D. Pa.).................................................... 30
In re White, 121 Cal. App. 4th 1453 (2004)............ 30
Jeffries.v.Wood, 114 F.3d 1484, 1490(9th Cir. 1997)

36
Monasky v Tagliere (US Supreme Court, 2020) -"38
Noergaard v. Superior Court Writ Order G057310
(Cal.App.4th Dist.2015)...............................
14
Noergaard.v.Noergaard (2015),244
Cal.App.4th.76,197 Cal.Rptr.3d.546,2015
(Cal.App.4thDist.2015)...............................
8
People v Turner, 8 Cal. 4th. 137, 878. P. 2d. 521, 32
Cal. Rptr. 2d. 762, 1994 Cal. LEXIS 4151, 94
Daily Journal DAR 11425, 94 Cal. Daily Op.
Service. 6238 CA 6
38
People v. Joehnk, 42 Cal. Rptr. 2d 6 (Cal. Ct. App.
1995)-—.........................................................
31
People.v.Gonzalez(2006)38 Cal.4th 932, 960
36

v

People.v.Hall, 23 Cl App 5th 576, 232
Cal.Rptr..3d.865, 2018 Cal App LEXIS 455, 2018
WL 2276109)
36
Re Hammermaster, 985 P.2d 924 (Wash. 1999) at
936
32
Re McBryde (2001, United States Court of Appeals
for the District of Columbia Circuit^ 264 F.3d at
68

32

Rodgers v. Sargent Controls & Aerospace (2006) -15
SAN DIEGANS FOR OPEN GOVERNMENT v.
CITY OF SAN DIEGO, Cal. 4th, Div.l (2016) --38
Santosky v. Kramer, 455 U.S. 745 (1982)
14
ST. MARY'S HONOR CTR v. HICKS, 509 U.S. 502
(U.S. Supreme Court 1993)
38
Taylor v. National R.R. Passenger Corp., 920 F.2d
1372, 1377 (7thCir. 1990)..................................... 37
U.S. Supreme Court in U.S. v. Marion 404 U.S.at
324 (1971).......................................................-....... 20
U.S. v. Jasper, 331F. Supp.814 (E.D. Pa. 1971)— 20
U.S. v. Prantil (9thCir.l985) 756F.2d759, 764
36
U.S. v. Tate, 336F. Supp.58(E.D. Pa. 1971)—
20
U.S.v.Blueford, 312 F.3d.962, 974(9th Cir. 2002)-35
U.S.v.Kojayan (9thCir.l993) 8F.3dl315, 1321
36
Waidla.v.Davis 2017 US CentralDist. Court
California LEXIS209365 HN39...................
37
Statutes
22 U.S.C. §§ 9001 & 9003
2
28 U.S.C. § 1257(a)..........
2
California Code of Civil Procedure (CCP) §1218.5(b)
26

CCP§ 1005(b).....................
Family Code (FC), §3153Government code § 68630

vi

24
21, 24
21, 23

Other Authorities
ABA Resolution 114 (Aug. 2018), Report
27
American Bar Association’s (ABA) Human Rights
Magazine Vol. 39. No. 4
16
American Declaration on the Rights and Duties of
Man............................................................. -............ 3
American Declaration on the Rights and Duties of
Man articles I, II, V, VI, VII, IX, XVIII, and XXIV
16
Article 22 of the Hague convention....................... 23
Article 22 of the Hague Convention...................... 21
Broadman, Decision and Order (Cal. Comm'n on
Judicial Performance Feb. 26, 1999)................. 30
Hague Convention, Article 26................................ 14
Justice Lewis F. Powell, Address at Legal Services
Corporation^ A Presidential Program of the
Annual Meeting of the American Bar Association
2 (Aug. 10,1976)
24
Van Voorhis, Decision and Order (Cal. Comm'n on
Judicial Performance Feb. 27, 2003)
31
Rules
California Rules of Court §5.241(b)(1)
CRC§5.241(C)(3)..................-..........-----

21, 24
26

Constitutional Provisions
Due Process and Equal Protection Clause of the
Fourteenth Amendment, United States
Constitution: Sec. 1
2, 13, 14, 25
US Constitution.........
21

Vll

PETITION FOR A WRIT OF CERTIORARI
Petitioner Tammy Noergaard (“Petitioner”)
respectfully petitions for a writ of certiorari to
review the published judgment of the California 4th
District Court of Appeal, Division three.
OPINIONS BELOW
The 2014 original Case Number (No.)
14FL000022 California trial court opinion(App.
182a-183a) is unpublished. The 2016 first Case No.
G049854 California 4th District Court of Appeal,
Division three reversal and remand order with
instructions (App.l57a-181a) is published. The 2016
Case No. S232641 order of the Supreme Court of
California
denying
review
(App.l56a)
is
unpublished. The 2019 Case No. 14FL000022
California Statement of Decision (App.64a-99a) is
unpublished. The 2020 second Case No. G057332
California 4th District Court of Appeal, Division
three partial reversal and remand order with
instructions (App.l4a-33a) is published. The 2021
Case No. S266275 order of the Supreme Court of
California(App.la) denying review is unpublished.
JURISDICTION
The California 4th District Court of Appeal,
Division three entered an Opinion on October 29,
2020.(App.l4a-33a) Petitioner filed a timely petition

1

for rehearing, which was denied; however, the Court
of Appeal issued corrections to the judgment on
November 24, 2020.(App.l2a-13a) Because of new
mistakes introduced in the modified judgment,
Petitioner filed a timely petition for rehearing to the
modified judgment which was denied on 12/1/2020.
(App.lla) Petitioner filed a timely petition for
review on 12/28/2020, which the Supreme Court of
California denied on March 10, 2021.(App.la)
This Court’s jurisdiction is invoked under 28
U.S.C. § 1257(a).
TREATY, CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
I. The Hague Convention on the Civil Aspects of
International
Child
Abduction(“the
Hague
Convention” or “the Hague”), Oct. 25, 1980, 1343
U.N.T.S. 89, and relevant portions of its enabling
statute, the International Child Abduction
Remedies Act, 22 U.S.C. §§ 9001 & 9003.
II. Due Process and Equal Protection Clause of the
Fourteenth
Amendment,
United
States
Constitution^ Sec. 1. [Citizens of the United States.]
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof, are
citizens of the United States and of the State
wherein they reside. No State shall make or
enforce any law which shall abridge the
privileges or immunities of citizens of the United
States! nor shall any State deprive any person of
life, liberty, or property, without due process of

2

law! nor deny to any person within its
jurisdiction the equal protection of the laws.
III. American Declaration on the Rights and Duties
of Man:
•

Article I, Every human being has the right to
life, liberty and the security of his person.

•

Article II, All persons are equal before the
law and have the rights and duties
established in this Declaration, without
distinction as to race, sex, language, creed or
any other factor.

•

Article V, Every person has the right to the
protection of the law against abusive attacks
upon his honor, his reputation, and his
private and family life.

•

Article VI, Every person has the right to
establish a family, the basic element of
society, and to receive protection therefore.

•

Article VII, All women, during pregnancy and
the nursing period, and all children have the
right to special protection, care and aid.

•

Article IX, Every person has the right to the
inviolability of his home.

•

Article XVIII, Every person may resort to the
courts to ensure respect for his legal rights.
There should likewise be available to him a
simple, brief procedure whereby the courts
will protect him from acts of authority that, to

3

his prejudice, violate
constitutional rights.
•

any

fundamental

Article XXIV, Every person has the right to
submit respectful petitions to any competent
authority, for reasons of either general or
private interest, and the right to obtain a
prompt decision thereon.
STATEMENT OF THE CASE*

A. BACKGROUND
The children in this case were both born in
California, and the parties met, married and resided
in California. The Petitioner, an American citizen,
got her ex-husband a green card and they started the
citizenship process for him, because of his stated
intent of wanting to live and raise their children in
California.
M.N. was four years old and S.N. was two years
old when they were first violently abducted to
Denmark by Respondent Christian Noergaard
(“Respondent”) after a temporary business trip for
training to Germany.
1 Because of extreme financial hardships due to this case going
on for almost seven years, resulting in two conflicting Court of
Appeal published decisions, COVID-related workplace
furloughs and closures, Petitioner had limited funds for an
attorney to draft this Petition for a Writ of Certiorari.
Petitioner will ask an attorney to appear before the US
Supreme Court to substitute in, should the US Supreme Court
grant this Petition for a Writ of Certiorari.

4

The Parties retained their California property,
bank accounts, bank accounts for the children,
driver’s licenses, and other California contacts
during what was supposed to be a temporary period
in Germany. None of this changed while the children
were abducted to Denmark. Petitioner went to find
and reunite with the children who were abducted to
Denmark, after the Danish system disregarded her
request for their return under the Hague
Convention.
Petitioner and several other non-ethnic Danish
fathers and mothers later filed group Petitions
against Denmark for violations of the Hague
Convention, human rights violations, and other
international law with the European Union (EU)
and United Nations(UN) human rights committees.
The EU and UN eventually ruled against Denmark
for violations, and in 2019 Denmark closed down
their old family court system, which had been
applied with negative implications to the Noergaard
children, and subsequently, Denmark recognized
that failed system and created a new one and
changed its law in an attempt to address the
findings of the EU and UN. However, the old system
and the records generated from the old Danish
system is what has been applied in this case.
M.N. was nine years old when she started
running away from Respondent’s home he had
moved to on the border of Denmark and Germany.
When M.N. was ten years old, in March 2013, she
ran away into Germany from the border town. In

5

Germany, a social worker contacted M.N.’s
grandmother to come and get her, and she returned
with her grandmother to California. Petitioner,
Respondent and S.N. were still in Denmark. M.N.’s
grandmother then contacted San Diego police and
social services on her immediate return. When
Petitioner had discovered where M.N. had run away
to in March 2013, she and her Danish counsel
immediately informed Danish authorities and
Respondent that M.N. was residing at the Parties’
California residence and continued working on a
solution in the best interests of the children.
B. TRIAL COURT HISTORY
Tammy Noergaard’s ex-husband filed a petition
under the Hague Convention in October 2013
seeking M.N.’s return to Denmark through the
Orange County District Attorney’s (OCDA) Office,
falsely claiming he did not know her whereabouts in
addition to other false statements.2
In 2014, the Orange County District Attorney’s
office was allowed to secretly initiate a case under
2 In Orange County, California, cases that involve the Hague
Convention are not traditional civil cases, but hybrid matters
in which the OCDA’s Office is directly involved as a party,
attending hearings, making oral arguments, and filing motions
and briefs from its initiation and through the end of a trial.
However, defendants in Orange County, California, such as
Petitioner Tammy Noergaard, are not afforded the same due
process rights to a fair trial afforded to other parties in criminal
or civil cases, including other Hague Convention cases in the
US.

6

the Hague Convention without the involvement of
the Petitioner, an American citizen, or doing any due
diligence in the case to determine the actual facts in
the matter, and then seized the child M.N, also an
American citizen, with an armed police swat team to
send her back to the foreign country she had been
violently abducted to by Respondent Christian
Noergaard(“Respondent”) to begin with.
In January 2014, the trial court, without
contacting Petitioner, issued an order for the
OCDA’s office to seize M.N. and give her to
Respondent. Upon an interview with the child and
the reasons for her running away(abuse by
Respondent), they took her to a juvenile social
services center on January 31, 2014. The trial court
held a first hearing on February 3, 2014, and the
same day M.N. was then forced to live with
Respondent and his attorney in a hotel.
When Petitioner went to court in Orange County,
despite the fact she was cited as a party in the
proceedings,' she was told she was only allowed to sit
in the back of the court room in the audience section,
like having to sit in the “back of the bus” during the
time of Jim Crow. Ms. Noergaard was not allowed
to sit next to her own attorneys and the other
parties, as Respondent was allowed to, while
hearings in the trial court were in session.
The trial court ruled against Petitioner and
refused to conduct an actual Hague trial. Citing
Article 11 of the Hague Convention, about six weeks

7

later the trial court ordered M.N. returned to
Denmark without allowing a trial to take place.
C. APPELLATE HISTORY: FIRST PUBLISHED
REVERSAL AND REMAND
In 2016, in the G049854 Noergaard v.
Noergaard3 (“Noergaard I”) published opinion, the
Court of Appeal ordered a reversal and remand of
the case citing due process violations and other
errors with specific instructions that included the
trial court!
•

•

•

•

Conduct a full evidentiary hearing on crucial
aspects of Petitioner’s claims of spousal abuse
and child abuse, including death threats.
Afford mother the opportunity to present
evidence supporting her claims of abuse and
death threats, and to consider that evidence
in a full and fair hearing, rather than
admitting only father’s evidence.
Allow Petitioner to support her claim that
M.N.’s forceful detention, pressure from
father’s influence, and history of abuse
influenced the child’s statements to the trial
court,
Determine what occurred in proceedings in
Denmark, so it can fully and fairly assess
mother’s claim under the Hague Convention

3 Noergaard v. Noergaard(2015), 244 Cal. App. 4th. 76, 197
Cal.Rptr.3d.546,2015 (Cal.App.4thDist.2015)

8

that Mother or Child’s fundamental rights
will not be protected there.
D. TRIAL COURT HISTORY AFTER FIRST
REVERSAL AND REMAND
In response, the trial court delayed the case until
2019 over the objections of Petitioner’s counsel that
included:
“MR. SUSSMAN: THE HAGUE CONVENTION
DEMANDS THAT THESE TYPES OF
PETITIONERS BE LITIGATED PROMPTLY
AND EFFICIENTLY.. ,”(App. 153a: 14-23)
“... AND SO TO THAT DEGREE, I WOULD
OPPOSE APPARENTLY PETITIONER’S NEW
MOTION
THAT
THERE
BE
SOME
EXTENSIVE AMOUNT OF DISCOVERY IN
THIS MATTER.”C4/?p.l54a:8-10)
The trial court disregarded Petitioner Counsel’s
objections:
“THE COURT:
... AND THEN ON THE
BACKSIDE OF ALL THAT I'LL SIT THERE
AND
ORDER
A
TRIAL
SETTING
CONFERENCE. I WAS THINKING OF
SETTING A TRIAL SETTING CONFERENCE
ON IT. BASICALLY ALSO STATUS REVIEW
FOR WHERE WE'RE AT. I WAS THINKING

9

MAYBE
DECEMBER
JANUARY’(App. 155a: 10-16)

OR

The trial court also refused to return M.N. to
Petitioner in California for proceedings or for a 730
evaluation, and ordered she remain in Denmark
with Respondent during the proceedings, and
refused to grant access or visitation for the next
three years.
The parties’ other minor child S.N. resides in a
boarding school, and is not living with M.N. or
Respondent. There is another ongoing trial court
case for the minor child S.N., Case No. 14FL000121
in the same trial court, and has been similarly
delayed by the trial court to date.
After several years of delay, the trial court
finally held a Hague trial in 2019 again ruling
against the Petitioner. The trial court did not comply
with any of the instructions in the Noergaard I Court
of Appeal order, Hague case precedent, California
statutes, and due process. The trial court also
disregarded the Petitioner’s counter-petition, filed
under State law.
The trial court closed the court room, and then
Petitioner, her counsel and/or her witnesses were
yelled at, threatened for intimidation purposes, not
allowed to testify to present the actual evidence
regarding the issues of the case as instructed by the
2014 reversal and remand order, constantly
interrupted, not allowed to finish their testimony,
and/or limited in their testimony. The trial court

10

also substituted the unsubstantiated statements of
the opposing attorneys for the documented evidence
or testimony of witnesses.
The trial court then projected its own statements
and/or the false statements of the other counsel onto
Petitioner’s counsel, Petitioner, and/or her witnesses
that mislead the reviewing court regarding blame
for the gross delays and costs in the trial court, as
well as the errors during trial and in the statement
of decision.
Based on instructions by the Court of Appeal to
wait until after the trial to Appeal, 4 Petitioner
appealed after the trial. Petitioner’s counsel also
raised the Appealable issues and misconduct that
took place during trial court proceedings outlined in
this Petition at oral arguments and in pleadings
during Appeal.
E. APPELLATE HISTORY: SECOND PUBLISHED
PARTIAL REVERSAL AND REMAND
In its original 10/29/2020 G057332 Opinion,
Court of Appeal only partially remanded the
underlying case regarding due process violations
that took place after the trial and only in relation to
4 “ ... Petitioner has an adequate remedy at law, i.e., an appeal
of the judgment that will be entered at the conclusion of trial.
Any so-called "gag order" issued by respondent court does not
prevent petitioner from filing an appeal from the judgment,
providing an adequate record on appeal, or filing briefs that
explain the basis for any contentions she may wish to make oh
appeal.” Writ Order G057310 (App. 95a)

11

Article 26. Because of several errors in the Opinion,
Petitioner filed Petitions for Rehearing. The Court of
Appeal
filed
a
11/24/2020
modified
Opinion(“Noergaard II”) and published the modified
Opinion, but did not correct the errors and
introduced additional errors in the modified
Opinion.
Petitioner filed a timely Petition for Review in
the California Supreme Court on 12/28/2020.
Furthermore, Amici Curiae Voices Set Free —
Intercept Abuse(VSFTA) and International Victims
Action Center(IVAC), who had been monitoring the
case since 2016, filed an amici letter in support of
the Petition for Review(App.2a-10a):
“Understanding how the trial court became an
instrument of abuse against the Petitioner in
this case requires ... look at the way the other
parties and trial court actually behaved in this
case before, during and after the trial and
during the Court of Appeal proceedings... the
Statement of Decision and Appellate Opinion
contain facts that could not be supported by the
evidence, and the Petitioner was denied her due
process rights to challenge the errors of the trial
court’s findings in the statement of decision; and
the statement of decision(and resulting
Appellate Opinion which relied on the
Statement of Decision) itself was a result of
direct aggression, procedural harassment,
personal contempt, and manipulation of reality

12

against the Petitioner, her child, her attorneys,
and her witnesses...”(App.5a:2-14)
The California Supreme Court denied the
Petition for Review on 3/10/2021.
REASONS FOR GRANTING THE PETITION
I. Does a reviewing Court retain jurisdiction to
review lower court decisions for harmful due process
violations under the Equal Protection Clause that
occurred before and during a trial, prior to the child’s
16th birthday, and raised on appeal; or
is
jurisdiction limited to only due process violations
that fall under Hague Convention Article 26 that
occurred after the trial and even when attorney’s
fees represented a collateral legal consequence ??
The published 2020 Court of Appeal decision has
run afoul of the principles of due process and equal
protection of the law.
On 2/7/2019, the Court of Appeal via Writ in the
underlying matter stated:
“... Petitioner has an adequate remedy at law,
i.e., an appeal of the judgment that will be
entered at the conclusion of trial. Any so-called
"gag order" issued by respondent court does not
prevent petitioner from filing an appeal from the
judgment, providing an adequate record on
appeal, or filing briefs that explain the basis for
any contentions she may wish to make on

13

appeal.”(App,104a, Noergaard v. Superior Court
Writ Order G057310(Cal.App.4th Dist.2019))
Therefore, Petitioner and her counsel raised the
due process issues after the trial on Appeal. In
conflating the Hague Convention, the Court of
Appeal failed to grasp the distinction between
jurisdictional appellate due process issues it could
review and limited itself to only issues that occurred
after the Hague trial relative to the Hague
Convention, Article 26.
The due process questions in this case have
profound ramifications on litigators and lower
courts. Furthermore, waiving the rights of litigants
in Hague cases to defend themselves, and to dismiss
the main portion of a case on such grounds as cited
by the Court of Appeal at this given point in this case
is unfair — especially when it was the Court of
Appeal that instructed Petitioner and her counsel to
wait until after the 2019 trial to Appeal these issues.
Given that the rights of a parent in the
relationship with a child are among the most
important and sacred in the United States, and
given that California law permits an appeal from
decisions regarding those rights, the State cannot,
consistent with the Fourteenth Amendment, refuse
to even to consider her due process claims. This
Court in Santosky v. Kramer, 455 U.S. 745(1982)
noted that the same point was made by a Committee
of the House of Representatives in connection with
the parental rights provisions of the Indian Child
Welfare Act: "[T]he removal of a child from the

14

parents is a penalty as great [as], if not greater, than
a criminal penalty...455 U.S. at 759, quoting H.R.
Rep. No. 95-1386, p. 22(1978).
Appellate review is the only effective legal
remedy which ensures due process and a fair trial
for a Respondent in a trial court case, and any
accountability for trial court errors.
Indeed, this Court has highlighted the role that
appellate review plays in promoting accuracy and
preventing erroneous decisions in parental rights
cases in the United States, that include Hague
cases.5
Beyond the interest in accuracy that is promoted
by an appeal, Lassiter emphasizes that appellate
review is an important component in enforcing the
due process rights of a parent without the financial
resources as other litigants. By not allowing
appellate review of due process violations that
occurred before and during the trial, the California
court’s policy contravenes the protection of due
process contemplated by Lassiter.
A litigant in an American courtroom cannot be
denied the right to a full and fair opportunity to
litigate the issues in the case.(Rodgers v. Sargent
Controls & Aerospace(2006) 136 Cal.App.4th 82, 90.)
In this case, the trial court did not comply with the
5 See, Lassiter v. Department of Social Svcs. (1981), 452 U.S.
at 28-29 (stating that appellate review is one of the means by
which North Carolina attempts to achieve accurate decisions);
Santosky, 455 U.S. at 776 n. 4 (Rehnquist, J., dissenting)
(noting the "error reducing power of procedural protections
such as .. . appellate review").

15

2016 reversal and remand order after delaying the
matter for several years! and Petitioner was
unlawfully denied her right to a fair trial a second
time, in violation of the 4th and 14th Amendments
of the US constitution.
As a result, the Hague Convention and a child’s
age clearly does not preempt Petitioner’s right to
Appellate review of the due process issues raised on
Appeal by Petitioner. Trial court Respondents in
Hague cases should have their day in the Court of
Appeal.
A. Did the Orange County court, as an actor for the
State, violate the Interamerican treaty for Human
Rights and other Human Rights treaties in its
mishandling of the Hague case?
Denying a Respondent in a trial court case proper
Appellate review of due process violations are also
violations of the American Declaration on the Rights
and Duties of Man articles I, II, V, VI, VII, IX, XVIII,
and XXIV, in addition to the violations that occurred
in the trial court since remand in this case.6

6 In the American Bar Association’s (ABA) Human Rights
Magazine Vol. 39. No. 4, John Pollock, the Coordinator for the
Right to Civil Counsel for the Public Justice Center, wrote,
“Most wealthy people would hire an attorney to avoid losing
their home, their children, or, in cases that involve health or
safety (such as domestic violence), potentially their very life ...
civil litigant cannot hope for a ‘fair trial’ when facing off alone
in an adversarial proceeding against a landlord’s attorney, or a
bank, or a state’s social services agency, or an abuser that
brings the full force of intimidation into the courtroom...And

16

California courts relative to both children and
Petitioner, acted as actors of the State, and had an
affirmative obligation to protect the rights of US
Citizens, Petitioner and children, guaranteed by the
American Declaration, from violation by the state,
its agents and private actors.7
Petitioner faced a troubling pattern in the
California Courts in Orange County which resulted
in the worst possible outcome of denial of due
process even under California law — and the
humiliating manner in which the authorities treated
Petitioner, her children, her counsel, and her
witnesses since 2014. Since 2014, violations of the
American declaration have been raised at every
stage of the proceedings in this case.
The Court of Appeal stating( as an actor of the
State) that they only had jurisdiction to review due
process violations that took place after the trial and
only related to Article 26, after ordering in a Writ
that Petitioner and her counsel wait until after the
trial to address the due process violations raised on
Appeal; only seeks to distract from the California
courts’ own errors in orders since January 2014
through 2020.
The Charter of the OAS(Organization of
American States) binds all Signatory States to its
provisions, and to other sources of law that the
what they stand to lose in basic human needs civil cases is
every bit as precious as that at stake in most criminal cases.”
7 INTER-AMERICAN COMMISSION and COURT ON HUMAN
RIGHTS case Gonzales vs. United States of America, Case No. 12.626,
2009, supra note 3, at 56

17

General Assembly of the OAS recognizes as
controlling. The Inter-American Court has affirmed
the General Assembly’s view that the “Declaration
contains and defines the fundamental human
rights referred to in the Charter.”8
This interconnectivity between the Charter of
the OAS and the American Declaration likewise
long has been recognized by the Inter-American
Commission and Court of Human Rights, which has
called the American Declaration a “source of
international obligations” for OAS member states
which includes the United States and specifically
California courts in Orange County as judicial actor
of the State.9
The facts of this case clearly demonstrate that
California Courts did not act with due diligence.
The failure of California Courts to act with due
diligence, has resulted in the State incurring
liability for the acts of private actors, as well as the
state and its agents. California Court orders and
conduct during parallel Noergaard cases in Orange
County Court are responsible for violations of
Petitioner’s rights guaranteed by the American
Declaration.
8 Inter-Am. C.H.R., Advisory Opinion OC-10/89 ^H| 43,45 (July 1989),
Interpretation of the American Declaration of the Rights and Duties of
Man within the Framework of Article 64 of the American Convention
on Human Rights.
9 See, e.g., Report No. 74/90, Case 9850, Hector Geronimo Lopez
Aurelli (Argentina), Annual Report of the IACHR 1990 U HI.6 (quoting
I/A Court H.R., Advisory Opinion OC-10/89 H 45); see also Mary and
Carrie Dann v. United States, Case 11.140, Report No. 75/02 H 163 (Dec.
27, 2002))

18

Provisions of the American Declaration provide
that the US, and California Courts in Orange
County by extension must provide an adequate and
effective remedy whenever rights protected by the
American Declaration are violated. The right to a
remedy is a foundational principle of the universal
and regional human rights systems and customary
international law.
This case demonstrates that any legal remedies
for Petitioner in Orange County were unnecessarily
prolonged, and unlikely to bring effective legal relief.
It is exactly this dynamic that allows the United
States Supreme Court to apply the American
. Declaration to this case and to hold California
Courts in Orange County to the standards and
obligations therein.
II. Does a litigant have a right to a timely Hague
trial, or do several years of delays result in violations
of the Equal Protection Clause, Article 2 of the
Hague
Convention,
and/or
the
American
Declaration on the Rights and Duties of Man?
This Court should grant review to resolve the
substantial uncertainty regarding the right of a
litigant to a timely Hague trial and whether delays
result in due process violations. One of the central
questions in dispute throughout this case has been
whether the ordered delays were in violation of due
process.

19

The trial court rejected Petitioner’s right to a
timely trial since the August 26, 2016 hearing and
throughout the underlying case. Petitioner’s counsel
objected to the trial court violations via writ to the
Court of Appeal. The purpose of the delays were to
harm Petitioner’s defense case, and causing
substantial prejudice to Petitioner’s right to a fair
trial, because the delay was for the purpose of
gaining a tactical advantage in the case.
Timely access to a fair trial is settled precedent
pursuant to Hague Convention, Article 2, which
provides that “Contracting States shall10 take all
appropriate measures to secure within their
territories the
implementation of the objects of
the Convention. For this purpose they shall use the
most expeditious procedures available” U.S. courts
have presumed the existence of prejudice when the
delay is unusually lengthy.11

10 The word “shall” in article 2 means it is imperative that a
Respondent has a right to have timely access to the courts and
going to trial.
11 In Cuellar v. Joyce (Cuellar II), 603 F. 3d. (9th Cir. 2010), the
Ninth Circuit found that a party relied on legal tactics
"intended to 'manipulate judicial process for purpose of delay."'
against pro bono counsel. The U.S. Supreme Court in US. v.
Marion 404 U.S.at 324 (1971) observed that a delay may harm
the defendant's case, and can cause substantial prejudice to
rights to a fair trial, especially when that the delay was an
intentional device to gain tactical advantage. U.S. v. Jasper,
331 F. Supp.814 (E.D. Pa. 1971), vacated and remanded for
reconsideration, 460 F.2d 1224 (3d. Cir. 1972)(two-and-onethird-year delay)! U.S. v. Tate, 336 F. Supp.58(E.D. Pa. 1971)
(fifteen-month delay)

20

The Court of Appeal opinion did not apply settled
precedent regarding Respondent’s right to a timely
trial.
IIL Does a litigant have a fundamental right to
equal justice under the law without regard to
economic means in a Hague case, or can extreme
trial costs and fees violate the Equal Protection
Clause, Article 22 of the Hague Convention, and/or
the American Declaration on the Rights and Duties

of Man?

-

This Court should grant review to resolve the
substantial uncertainty in California regarding
unreasonable costs and fees ordered in a trial court
and the misuse of fees and costs to delay the case
and increase its costs, and urge the Court to consider
the fundamental importance of the right to equal
justice without regard to economic status and the
essential role of Government code § 68630, Family
Code(FC), §3153 and California Rules of Court
§5.241(b)(1), and Article 22 of the Hague Convention
in addition to the US Constitution.
The trial court was informed by Petitioner’s
counsel that the California 730 psychological expert
selected stated that it was cost prohibitive for a 730
to move to Denmark to do an evaluation, and an
evaluation would have to be conducted in California
for it to be affordable.
The trial court first would not allow a request for
a fee waiver until Petitioner’s counsel took a writ,

21

and then would not enforce it after it ordered one
and Petitioner’s counsel had to take more writs to
the Court of Appeal regarding the bad faith tactics
address the violations of the other counsel and the
trial court.(App.l34a and 151a)
On 12/23/2016, the trial court then ordered a
60/40 division of fees and appointed an additional
expert, where Petitioner would have to pay the
majority of fees. Again, the trial court made this
order without proper notice, again without properly
determining who had the greater resources, while
refusing to enforce its own fee waiver for Petitioner.
The attorneys the trial court appointed to the
case required fees paid in full before he would set a
trial or resolve issues for trial, based on the
misstatements of the other parties; rather than
enforcing her fee waiver(App. 149a- 150a), so the
court appointed attorneys would accept the monthly
payments towards fees she could actually afford.
The trial court disregarded Petitioner’s counsel
objections that Respondent had all of his attorney
fees and court costs paid by the Danish government
since 2014. The trial court also disregarded that
Respondent had additional guarantees of payment
from Denmark and Danish Legal Aid, for of all
minor’s counsel’s fees and his own counsel’s fees, in
addition to all other expenses and fees related to this
case.(12/23/2016
Reporter
Transcript(RT),
App.l40a:8-26,141a-142a)
Amicus curiae and Petitioner’s counsel filed
briefs with objections and writs to the lower courts

22

regarding this case being misused as a means of
economic abuse against Petitioner to generate
several hundred thousand dollars for the other
attorneys that are being paid for by a foreign
country.
The trial court then continued delaying the case
and disregarding Petitioner attorney’s objections
about the overbilling and exorbitant fee demands of
the appointed attorneys.
California Government code § 6863012 shows the
California legislature intended equal justice without
regard to their economic means. Furthermore,
Article 22 of the Hague convention which states that
“No security, bond or deposit, however described,
shall be required to guarantee the payment of costs
and expenses in the judicial or administrative

12 “...The Legislature finds and declares all of the following: (a)
That our legal system cannot provide "equal justice under law"
unless all persons have access to the courts without regard to
their economic means. California law and court procedures
should ensure that court fees are not a barrier to court access
for those with insufficient economic means to pay those fees,
(b) That fiscal responsibility should be tempered with concern
for litigants' rights to access the justice system. The procedure
for allowing the poor to use court services without paying
ordinary fees must be one that applies rules fairly to similarly
situated persons, is accessible to those with limited knowledge
of court processes, and does not delay access to court services.
The procedure for determining if a litigant may file a lawsuit
without paying a fee must not interfere with court access for
those without the financial means to do so. (c) That those who
are able to pay court fees should do so, and that courts should
be allowed to recover previously waived fees if a litigant has
obtained a judgment or substantial settlement.”

23

proceedings falling within the scope of this
Convention”.
California Family Code(FC), §3153 and
CRC§5.241(b)(1) specify that allocation of fees
between parties requires the determination of who
has greater financial resources by the trial court.
Hague Convention, Article 22 states that “No
security, bond or deposit, however described, shall13
be required to guarantee the payment of costs and
expenses in the judicial or
administrative proceedings falling within the scope
of this Convention”.
Equal justice without regard to economic status
is a cornerstone of the American justice system.14

13 The word “shall” means it is imperative no security, bond or
deposit, however described, shall be required to guarantee the
payment of costs and expenses in the judicial proceedings, and
it is not left to judicial discretion of a Court for fee orders to
delay the case. Furthermore, the period for both parties to brief
an issue must be provided pursuant to CCP§ 1005(b), and
even a motion brought sua sponte by the Court, does not waive
this rule.
14 See Justice Lewis F. Powell, Address at Legal Services Corporation:
A Presidential Program of the Annual Meeting of the American Bar
Association 2 (Aug. 10,1976) (“Equal justice under law is not merely a
caption on the facade of the Supreme Court building; it is perhaps the
most inspiring ideal of our society. It is one of the ends for which our
entire legal system exists. ... It is ... fundamental that justice should be
the same, in substance and availability, without regard to economic
status.”); “Justice is indiscriminately due to all, without regard to
numbers, wealth, or rank.” Georgia v. Brailsford, 3 U.S. 1, 4 (1794);
“[n]o duty rests more imperatively upon the courts than the enforcement
of those constitutional provisions intended to secure that equality of
rights which is the foundation of free government.” Gulf, C. & S.F. Ry.
Co. v. Ellis, 165 U.S. 150, 160 (1897).

24

As the evidence in this case shows, such financial
fees and costs as what was ordered in this case since
reversal and remand, rendered justice unequal. The
due process questions related to the misuse of costs
and fees in this case are not mooted by the child’s
age or the Hague Convention.
Given the fundamental nature of parental rights,
and given that California law authorizes an appeal
from decisions of a California Superior Court; it
violates both the Due Process and the Equal
Protection Clauses of the Fourteenth Amendment to
delay a trial and dismiss an appeal except for only
those who have sufficient wealth to pay the amounts
that were charged here, while closing it to those who
do not.
A. It is a violation of the Equal Protection Clause
when a litigant is threatened with imprisonment on
a contempt charge over costs and fees in a Hague
case, and a trial court refuses to set the matter for
trial and delays the trial, because a litigant cannot
afford to pay, the costs and fees were not owed, and
there was no order the litigant was in contempt of.
On 10/7/2016 the trial court allowed Respondent
to file a frivolous contempt action against Petitioner
for alleged non- payment of additional minors
counsel Sheryl Edgar fees(“minor counsel”). This is
in spite of the fact that there were no outstanding
minor counsel fees owed by Petitioner, and no order
of additional fees owed that Petitioner was in
contempt of.

25

Petitioner’s counsel also objected to the
overbilling of minor counsel and their actions to
increase the costs of the case (App. 128a -133a)
There are exceptions to what can be brought as a
contempt action in California, and pursuant to
CRC§5.241(C)(3), Respondent lacked standing to
bring this contempt action and there was no court
order for fees owed that Petitioner was in contempt
of. Even if Respondent had standing, under
California Code of Civil Procedure(CCP) §1218.5(b),
any action was barred under the statute of
limitations and Hague Convention, Article 22.
The trial court and the same other legal counsel
were trying to jail Petitioner to delay the trial so the
matter would never go to trial, after it had already
been delayed since 2014 and resulted in the first
remand. The trial court also specifically stated he
would still not set a Hague trial again in 12/23/2016,
eight months after remand, because of the contempt
proceeding regarding alleged additional fees
owed.(12/23/2016RT, App. 142a-'9-11)After delaying
the matter further over this issue and it adding an
additional several months of costs to the case, the,
contempt was dropped less than 24 hours before the
hearing.
It is not only US Courts that have recognized the
nexus between fees/costs, and equal justice! and that
the greater the fees and costs, the more acute and
widespread the disparate impacts. The American
Bar Association(ABA) Working Group on Building

26

Public Trust in the American Justice System 15
addressed the concern that excessive judicial costs
and fees disproportionately harm the millions of
Americans who cannot afford to pay them,
exacerbating disparities, diminishing trust in our
justice system, and trapping litigants in cycles of
economic abuse through the legal system.16
In cases involving fundamental rights, this
court's precedents prohibit a state from denying its
citizens access to existing avenues in a court system
simply because of their financial hmitations. In a
significant line of cases, this Court consistently has
protected the right of citizens, no matter their
financial station, to pursue fundamental legal
interests through existing avenues in state judicial
systems.

15 In August 2018, the Working Group proposed, and the House
of Delegates adopted, Ten Guidelines on Fines and Fees,
designed to ensure equal treatment of litigants in the justice
system, and to promote fair practices that consider a litigant’s
individual financial circumstances. The report accompanying
the Guidelines laid out some of that evidence. The report noted,
for example, that an estimated 10 million Americans owe more
than $50 billion in debts imposed by the justice system. See
ABA Guidelines, Report at 2, http '-//bit.lv/2NhGzDv. Further,
the ABA cited studies showing that nearly two-thirds of
current prisoners were assessed court fines and fees, and have
little prospect of paying them when they leave prison, as 60
percent remain unemployed a year after release. Id. The facts
of this case regarding the contempt action as it related to minor
counsel fees, and the commentary to the guidelines debunks
the popular misconception that the US long ago abolished
“debtors’ prisons.” ABA Guidelines, Comm, at 3-4.
16 ABA Resolution 114 (Aug. 2018), Report at 2,
http://bit.ly/2NhGzDy [hereinafterABA Guidelines, Report].

27

This Court's decision in Boddie v. Connecticut,
401 U.S. 371(1971) held that it is a due process
violation to require monetary fees that prevents a
litigant from access to the courts in a matter
involving a fundamental interest.
Thus, the Court of Appeal should have
determined the cumulative effect of the trial court
error on the case of the violation of the Equal
Protection Clause when the trial court threatened to
imprison Petitioner on a contempt charge in a Hague
case, and it refusing to set the matter for trial
because of fees and costs. It is all the more
outrageous because, in fact, the fees and costs were
not owed, there was no order for additional fees owed
that Petitioner was in contempt of, these actions in
the trial court resulted in exponentially increasing
the fees and costs in the trial court, and these fees
and costs were a large portion of the costs and fees
discussed in Noergaard II.
IV. Can egregious misconduct during trial court
proceedings, so seriously affect the trial as to violate
the Due Process and Equal Protection Clause of the
Fourteenth Amendment of the United States
Constitution, as to warrant reversal?
This Court should grant review to resolve the
substantial uncertainty regarding whether trial
court and other attorney misconduct can so seriously
affect the trial as to warrant reversal.

28

The outcome of this Hague
case was
irretrievably prejudiced by the very misconduct
which is at the core of this case, and there cannot be
a reliance upon the outcome of the tainted case as a
basis to avoid liability and reversal of judgments for
the very acts which tainted it. Petitioner’s injuries
arose out of the mishandling of the Hague
proceeding in which the perjury occurred and
Petitioner had no ability to assert any claim based
upon those injuries within that proceeding.
After Petitioner and her counsel objected to the
continuing misconduct on Appeal, the Court of
Appeal, in its opinion, accepted the offending
attorney’s apology for one instance of blatant,
material and deliberate misrepresentation and
misconduct(App.38a-63a); when the issue as to
whether judicial and counsel misconduct had so
seriously affected the trial as to warrant reversal
should have been considered by the Court of Appeal.
There were several instances of similar misconduct
and false statements raised by Petitioner’s attorney
on Appeal where Respondent’s counsel made
materially false statements such as the One in his
declaration signed under penalty of perjury
regarding the history of the case to the Court of
Appeal.
Several tests for determining when legal error
constitutes attorney or judicial misconduct have
been adopted in California.
"Egregious" legal errors have been identified as a
type of error that justifies appellate review.

29

Although "egregious" is a subjective term, the most
obvious example of an egregious error is a denial of
constitutional rights.
Petitioner’s counsel repeatedly objected to the
opposing attorneys who made oral statements as
well as filed pleadings that “grossly and repeatedly
misrepresent the law and the facts” in the trial court
and Court of Appeal. This is sufficient to constitute
egregious behavior.17
Petitioner’s counsel also objected to the
misconduct and increasingly abusive behavior by
the trial court throughout the trial court proceedings
since remand, and to the Court of Appeal.
The California Commission on Judicial
Performance sanctioned a judge for denying due
process in a civil trial.( See Broadman, Decision and
Order(Cal. Comm'n on Judicial Performance Feb.
26,
1999)(admonition for this and other
misconduct).18. As in the Broadman case, the trial
court in the Noergaard case followed an alternative
procedure for a Hague proceeding without stating he
was going to follow an alternative procedure nor
offering Petitioner a traditional Hague trial if she
wanted one, or stating he would not be complying
17 In re White, 121 Cal. App. 4th 1453 (2004). In General
Refractories Co.v.Fireman's Fund Ins. Co.,
2002 U.S.
Dist.LEXIS 25324, 2002 WL 376923(E.D. Pa.) ; the Third
Circuit agreed with the litigant that the following intra­
litigation conduct was egregious bad faith conduct by the
opposing counsel: a pattern of delay, stonewalling, deception,
obfuscation and pretense.' and (2) misrepresenting facts to the
Court and opposing counsel;
18 available at http://www.cip.ca.gov./pubdisc.htm

30

with the G049854 reversal and remand order when
he proceeded with an alternative procedure. The
trial court also conducted the Hague trial in a
manner that departed completely from the usual
procedures required by the adversary system.
The trial court in this case also mistreated
Petitioner’s counsel and her witnesses, and allowed
mistreatment by the other counsel. In re Van
Voorhis19, the California Commission on Judicial
Performance emphasized that its finding of
misconduct was based on the judge's treatment of
counsel when he ruled that certain evidence should
be excluded, not on whether the ruling was correct.20
In a condescending and "somewhat hostile tone," the
judge engaged in a critique of the prosecutor that
was disparaging, mocking, and sarcastic.
In re Hammermaster, the Supreme Court of
Washington held, "[judicial independence does not
equate to unbridled discretion to bully and threaten,
to disregard the requirements of the law, or to ignore

19 Van Voorhis, Decision and Order (Cal. Comm'n on Judicial
Performance Feb. 27, 2003) (removal for eleven instances of
improper courtroom demeanor), available at
httpV/cjp.ca.gov/pubdisc.htm, petition for review denied,
available at http V/www.courtinfo. ca.gov/courts/supreme/.
20 The masters had found that the prosecutor's attempt to have
a police officer describe the horizontal gaze nystagmus test was
reasonable. The incident before Judge Van Voorhis took place
in 1999, and in 1995, the California Court of Appeals had held
. that the gaze nystagmus test was admissible as a basis for an
officer's opinion that a defendant was driving under influence
of alcohol without requiring expert testimony. See People v.
Joehnk, 42 Cal. Rptr. 2d 6 (Cal. Ct. App. 1995).

31

the constitutional rights of defendants” 21 The
United States Court of Appeals for the District of
Columbia Circuit stated that "we are all at a loss to
see why those should be the only remedies, why the
Constitution, in the name of'judicial independence,'
can be seen as condemning the judiciary to silence in
the face of such conduct.,22
Trial judges who do indulge in displays of
hostility can prompt corrective measures by a
reviewing Court, if the displays of hostility were
sufficiently extreme.23
"... 3.1 have testified as an expert witness in civil
and criminal court cases over 100 times prior to
this case in my career so far....
4. My experience in Judge John Flynn’s court
room was quite out of the ordinary, relative to
my considerable experience as an expert witness
... As I expressed to Ms. Noergaard’s counsel, up
21 Re Hammermaster, 985 P.2d 924 (Wash. 1999) at 936
22 Re McBryde (2001, United States Court of Appeals for the
District of Columbia Circuit^, 264 F.3d at 68. The court
described one instance in which the judge had ordered a lawyer
to attend a reading comprehension course when she failed to
have her client attend a settlement conference as required by
the judge's standard pretrial order. The court noted: Appeal is
a most improbable avenue of redress for someone like the
hapless counsel bludgeoned into taking reading comprehension
courses and into filing demeaning affidavits, all completely
marginal to the case on which she was working. Possibly she
could have secured review by defying his orders, risking
contempt and prison. Id. at 67-68.
23 U.S. v. Candelaria-Gonzalez, 547 F.2d 291, 297 (5th Cir.
1977) (trial judge’s sarcasm, his frequent interruptions and his
antagonistic comments ... deprived defendant of fair trial)

32

until my testimony in Judge Flynn’s court, I had
only been treated with the utmost respect and
dignity
by
judges,
magistrates,
and
administrative hearing officers. My experience in
Judge Flynn’s court was a marked departure
from my other testimonial experience. This was
the first and only time that I have been
received by the court with disrespect, contempt,
and incivility...(App. 34a S 7a f3‘4)
•

•

•

MS. SALCIDO: YOUR HONOR, I WOULD
JUST ASK THAT COUNSEL COULD JUST
TONE
DOWN
HIS
VOICE.
HE'S
YELLING.”(2/1/2019 RT, App. 107a: 12-13)
“MS. SALCIDO: YOUR HONOR, I'M JUST
GOING TO ASK ... THAT SHE NOT YELL
AT
THE
WITNESS .”(1/24/2019
RT,
App. 114a: 13-15)
“MS. SALCIDO: ... BUT THAT WAS WHEN
WE WERE SUPPOSED TO BEGIN THE
PROCEEDINGS
AT
10:30
THIS
MORNING....YOUR HONOR, I MUST SAY
THAT THIS SEEMS RATHER ABUSIVE BY
THE COURT AT THIS TIME TO CAUSE
THE WITNESS.RT, App.108a: 57,21-21)

Several times, the trial court would also not
afford Petitioner or her counsel the same
opportunities to speak or object as he afforded the

33

other parties, become threatening when they tried to
object, cutting them off and/or speaking over them.
•

•

•

•

•

MS. MCKEON: YOUR HONOR, I'M SORRY.
I WAS NOT GIVEN A CHANCE TO SAY
ANYTHING ABOUT — IN RESPONSE TO
THE ARGUMENTS
OF
EVERYONE
REGARDING JUDICIAL NOTICE, BUT I
WOULD LIKE THE COURT TO NOTE
THAT THE COURT OF APPEAL DID CITE
TO
THESE REPORTS.. ”(6/9/2017 RT
App. 138a-'8-12)
“MS. SALCIDO: I DIDN’T GET A CHANCE
TO RESPOND TO THE SHELL GAME HE
JUST PUT ON, YOUR HONOR. THAT’S
WHAT
I’M
TRYING
TO
POINT
OUT.”(1/28/2019 RT, App. 110a: 12-14)
“MS. SALCIDO: YOUR HONOR, GIVE HER
A CHANCE TO RESPOND. I OBJECT HE’S
NOT GIVING THE WITNESS A CHANCE
TO PROPERLY REPLY.” (1/23/2019 RT,
App. 117a: 7-9)
“MS. SALCIDO: OBJECTION, YOUR
HONOR, AGAIN FOR CLARITY, I WOULD
ASK THE COURT ADMONISH COUNSEL
TO LET MY CLIENT FWlSU.”(l/23/2019
RT, App. 118a: 13-15)
MS. SALCIDO: SHE DIDN’T FINISH. HOW
DO WE KNOW WHAT SHE WAS GOING TO
SAYT(1/25/2019 RT, App. 112a: 24-25)

34

•

“MS. SALCIDO: .... AND HE’S NOT EVEN
LETTING
HER
FINISH
HER
ANSWERr(1/23/2019 RT, App.ll6a: 22-23)

An attorney is entitled to a timely opportunity to
make objections. From this it necessarily follows
that a trial judge is without power to foreclose that
opportunity by any order or admonition. 24 An
objection is more difficult to raise because of judge’s
abrupt actions or statements.25
During the trial, the trial court arbitrarily
reversed its rulings.(App. 100a- 103a) US Courts
have consistently found that a Court arbitrarily
reversing its rulings results in violating a litigant’s
rights to the effective assistance of counsel and the
overall fairness of the trial. It is one thing to
postpone a ruling on admissibility of prior evidence
until after testimony, it is another thing all together
to definitively rule evidence inadmissible inevitably
influencing how counsel advises only to completely
reverse the ruling after testimony. The distinction is
a critical one that implicates the defendant’s right to

24 “The power to silence an attorney does not begin until
reasonable opportunity for appropriate objection or other
indicated advocacy has been afforded.” (Cooper v. Superior
Court (1961) Cal. 2d. 291, 298)
25 Gori v U.S., 367 U.S.364, 365 n.6, 6 L. Ed.2d 901, 81 S. Ct.
1523(1961) (because of precipitous course of events, there was
no opportunity for [an] objection) See U.S.v.Blueford, 312
F.3d.962, 974(9th Cir. 2002)(“Where a party has ‘no opportunity
to object to a ruling or order,’ he may not be prejudiced for
failing to do so.”)

35

the effective assistance of counsel and the overall
fairness of the trial.26
Petitioner and her counsel had relied on trial
court rulings when it abused its discretion by
reversing itself during the trial as outlined in the
sections above, as well as violating the advocatewitness rule regarding his statements and the
statements of the other counsel.27 Throughout the
underlying case, the trial court consistently cited
that the other attorneys being attorneys as being the
reason for substituting their unsworn/unproven
statements for evidence from witnesses and records
in the case.
26 People v. Hall, 23 Cl App 5th 576, 232 Cal.Rptr..3d.865, 2018
Cal App LEXIS 455, 2018 WL 2276109)“In our view, the
Court's belated about-face ruling on the admissibility of
extremely prejudicial evidence deprived defendant of the
“guiding hand of counsel at every step in the proceedings
against him, ” just as surely as the rule restricting the timing
of the defendant's testimony did in Brooks v. Tennessee (1972)
406 U.S. 605, 406 U.S. at page 612. We have no doubt that the
Court's reversal of its previous ruling “placed defense counsel
into the untenable position of having to make an uninformed
tactical decision” about how to advise his client and “forced
counsel to make an uninformed, unintelligent decision»»
(People v. Gonzalez(2006)38 Cal.4th 932, 960)
27 "When a lawyer asserts that something not in the record is
true, he is, in effect, testifying. He is telling the jury: 'Look, I
know a lot more about this case than you, so believe me when
I tell you X is a fact.’ This is definitely improper."
(U.S.v.Kojayan (9thCir.l993) 8F.3dl315, 1321.) It violates the
"advocate-witness" rule. (U.S. v. Prantil (9thCir. 1985)
756F.2d759, 764.) “A juror's communication of extrinsic facts
implicates the Confrontation Clause. See Jeffries.v.Wood, 114
F.3d 1484, 1490(9th Cir.1997) (en banc). The juror in effect
becomes an unsworn witness, not subject to confrontation or
cross examination. See id.”

36

In a number of opinions, US Courts noted ways
in which counsel misrepresented the way in which
evidence had been used.28
The trial court also manifested bias in the
presentation of evidence, and the judge officiously
and unnecessarily usurped the duties of the other
parties and in doing so created the impression he
was allying himself with the other parties.29

28 See Gulbranson v. Duluth, Missabe & Iron Range Ry., 921
F.2d 139, 142-43 (8th Cir. 1990) (plaintiff argued on appeal that
statements had been offered for non-hearsay purpose of
showing knowledge on part of defendant rather than for truth
of matter asserted, but on closing argument plaintiffs attorney
not only used statements for truth but suggested that they
warranted "more credibility than the live testimony of the
witnesses"); see also Taylor v. National R.R. Passenger Corp.,
920 F.2d 1372, 1377 (7thCir. 1990) (noting that appellee in its
brief mischaracterized evidence as impeachment evidence in
violation of principles in prior opinion of court; evidence of prior
back injury inadmissible both substantively and for
impeachment used to suggest that plaintiff had preexisting
injury and "this tenuous evidence was used to bootstrap
argument that [plaintiff] lied on his employment application")
29 Waidla v. Davis 2017 US Central Dist. Court California
LEXIS 209365 HN39; In People v. Park, the COURT OF
APPEAL found that the defendant was denied the right to a
fair trial and abused his discretion by interrogating witness
with conduct which bordered on advocacy when trial judge
• officiously and unnecessarily usurps the duties of the opposing
counsel by taking over questioning of witnesses because he is
allying himself with the other party. People v. Clark, 3
Cal.4th.41,833 P.2d.561,10 Cal.Rptr.2d.554,1992 Cal.LEXIS
3491,92 Daily Journal DAR 10654,92 Cal.Daily Op.Service
6658 HN 13

37

A. This court should grant review to resolve a
Respondent’s right to respond or object to the prima
fade case in the trial court before a trial court makes
a ruling on it.
This Court should grant review to resolve
whether a Respondent has a right to respond or
object to a prima facie case before the trial court
makes a ruling on it
California and US Case law support that only
after a respondent has responded to the plaintiffs
prima facie case, a trial court has before it all the
evidence it needs to decide.30
The Hague Convention also provides that it is a
trial court petitioner who proves a prima facie case,
and the child must be returned unless a trial court
respondent can prove an affirmative defense. 31
Proving habitual residence is one of three parts of
the prima facie case, and the trial court was obliged
to consider evidence on the totality of the
circumstances in this case.32 After the OCDA’s
so ST. MARY'S HONOR CTR v. HICKS, 509 U.S. 502 (U.S.
Supreme Court 1993) citing Postal Service Bd. of Governors v.
Aikens (1983)460 U.S., at 715! SAN DIEGANS FOR OPEN
GOVERNMENT v. CITY OF SAN DIEGO, Cal. 4th, Div.l
(2016); People v Turner, 8 Cal. 4th. 137, 878. P. 2d. 521, 32 Cal.
Rptr. 2d. 762, 1994 Cal. LEXIS 4151, 94 Daily Journal DAR
11425, 94 Cal. Daily Op. Service. 6238 CA 6 (“..the party
opposing the motion should be given the opportunity to respond
to the motion i.e., to argue that no prima facie case has been
made”)
31 Since her Affirmative Defenses were Article 13 and Article
20

32 The Supreme Court ruling in Monasky v Tagliere (US
Supreme Court, 2020), authored by the late great Justice

38

office presented Respondent’s petition, the trial
court once again did not.(l/22/2019 RT App.l20a*
128a)
CONCLUSION
For the reasons outlined above, the Petition for a
writ of certiorari should be granted.
Dated:
3/31/2021
Respectfully Submitted,

Tammy Noergaard
Petitioner , In Propria Persona

Ginsburg, set forth the evidentiary approach to use when
determining a child’s “habitual residence” and the standard for
review of that issue on appeal. This ruling held that a trial
court’s habitual residence determination presents a mixed
question of law and fact that is heavily fact laden.

39

